NUMBER ______
_________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
OCTOBER TERM 2020
__________________________________________________________________

RYAN SCOTT KIBBLE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
_________________________________________________________________
APPENDIX A
TO PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_________________________________________________________________
JONATHAN D. BYRNE
APPELLATE COUNSEL
Office of the Federal Public Defender, Southern District of West Virginia
Room 3400, Robert C. Byrd Federal Courthouse
300 Virginia Street East
Charleston, West Virginia 25301
Telephone: 304/347-3350
Counsel for Petitioner
WESLEY P. PAGE
FEDERAL PUBLIC DEFENDER
DAVID R. BUNGARD
ASSISTANT FEDERAL PUBLIC DEFENDER

United States v. Kibble, 992 F.3d 326 (2021)

992 F.3d 326
United States Court of Appeals, Fourth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Ryan Scott KIBBLE, Defendant - Appellant.
No. 20-7009
|
Argued: January 29, 2021
|
Decided: April 1, 2021
Synopsis
Background: Federal prisoner who was servicing 57 months' imprisonment after pleading guilty
to one count of traveling to engage in illicit sexual conduct filed a motion seeking compassionate
release based on COVID-19 concerns. The United States District Court for the Southern District
of West Virginia, 2020 WL 3470508, David A. Faber, Senior District Judge, denied prisoner's
motion. Prisoner appealed.

Holdings: The Court of Appeals held that:
[1] Court of Appeals would review the denial of prisoner's request for compassionate release,
based on extraordinary and compelling circumstances, for an abuse of discretion, and
[2] district court adequately considered the sentencing factors in deciding prisoner's motion for
compassionate release, and thus did not abuse its discretion by denying prisoner's motion.
Affirmed.
Gregory, Chief Judge, and Quattlebaum, Circuit Judge, filed separate opinions concurring.
Procedural Posture(s): Appellate Review; Sentencing or Penalty Phase Motion or Objection.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-1 1

United States v. Kibble, 992 F.3d 326 (2021)

West Headnotes (3)
[1]

Criminal Law

Sentencing

Court of Appeals would review the denial of federal prisoner's request for compassionate
release, based on extraordinary and compelling circumstances, for abuse of discretion; like
similar, parallel provision, the “extraordinary and compelling circumstances” provision
provided permissive language that court “may” reduce a term of imprisonment upon
considering the relevant sentencing factors.
(2).

18 U.S.C.A. §§ 3582(c)(1)(A)(i),

3582(c)

87 Cases that cite this headnote
[2]

Sentencing and Punishment

Commentary and policy statements

Sentencing and Punishment

Change in facts

Sentencing Guidelines policy statement rendering an incarcerated person seeking
compassionate release based on extraordinary and compelling circumstances ineligible for
a sentence reduction upon district court's determination that person is danger to safety
of others applies only when a request for compassionate release is made upon motion of
Director of the Bureau of Prisons (BOP) motion, and not when the incarcerated person files
motion directly with district court.

18 U.S.C.A. § 3582(c)(1)(A);

U.S.S.G. § 1B1.13.

134 Cases that cite this headnote
[3]

Sentencing and Punishment

Change in facts

District court adequately considered the sentencing factors in deciding federal prisoner's
motion for compassionate release based on COVID-19 concerns, after finding
extraordinary and compelling circumstances warranted reduction, and thus court did not
abuse its discretion by denying prisoner's motion, although in denying the motion, court
found it “very significant” that prisoner had served such a small portion of his sentence; in
addition to considering the amount of time prisoner had already served, court gave great
weight to the nature of prisoner's offense, noting that prisoner who pled guilty to traveling
to engage in illicit sexual conduct, armed with condoms, crossed state lines for the express
purpose of having sex with a 14-year-old girl.

18 U.S.C.A. §§ 3553(a),

3582(c)(1)(A).

69 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-2 2

United States v. Kibble, 992 F.3d 326 (2021)

*327 Appeal from the United States District Court for the Southern District of West Virginia, at
Charleston. David A. Faber, Senior District Judge. (2:19-cr-00077-1)
Attorneys and Law Firms
ARGUED: Jonathan D. Byrne, OFFICE OF THE FEDERAL PUBLIC DEFENDER, Charleston,
West Virginia, for Appellant. Jennifer Rada Herrald, OFFICE OF THE UNITED STATES
ATTORNEY, Charleston, West Virginia, for Appellee. ON BRIEF: Wesley P. Page, Federal Public
Defender, David R. Bungard, Assistant Federal Public Defender, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Charleston, West Virginia, for Appellant. Michael B. Stuart, United States
Attorney, Jennifer Rada Herrald, Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Charleston, West Virginia, for Appellee.
Before GREGORY, Chief Judge, KEENAN, and QUATTLEBAUM, Circuit Judges.
Opinion
Affirmed by published per curiam opinion. Chief Judge Gregory and Judge Quattlebaum wrote
concurring opinions.
PER CURIAM:
*328 Ryan Kibble began serving a 57-month term of imprisonment at FCI Elkton shortly after
he pled guilty to one count of traveling to engage in illicit sexual conduct, in violation of

18

U.S.C. § 2423(b), (e). After the coronavirus began infecting staff and incarcerated persons at
FCI Elkton, Mr. Kibble sought compassionate release. He argued that his chronic health conditions
placed him at a heightened risk for contracting and suffering severe complications from the disease.
The district court denied the motion for compassionate release. For the reasons discussed below,
we affirm.

I.
On March 1, 2019, Mr. Kibble logged onto an app called “Meet Me” and began talking with several
“presumably single adult women.” J.A. 66. He “matched” with and started talking to someone who
identified herself as an 18-year-old female. But upon learning that she was only 14, Mr. Kibble
kept talking to her. He engaged her in sexual conversations: first via text message, then over the
phone. Ultimately, the two arranged to meet in person and have sex.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-3 3

United States v. Kibble, 992 F.3d 326 (2021)

As planned, Mr. Kibble left his Belpre, Ohio office the next day and drove to a parking lot in
Parkersburg, West Virginia. There Mr. Kibble was greeted, not by a 14-year-old girl, but by law
enforcement who immediately arrested him. The teenage girl that Mr. Kibble thought he was
talking to was actually an undercover federal agent.
A grand jury indicted Mr. Kibble. Initially, the district court remanded him to the custody of the
Bureau of Prisons. But a month later, it released him on his own recognizance. While out on bond,
Mr. Kibble negotiated a plea agreement with the Government, in which he agreed to plead guilty
to one count of traveling to engage in illicit sexual conduct and the Government agreed to dismiss
the remaining count in the indictment. The parties also agreed that a sentence of 46–78 months,
coupled with a 15-year term of supervised release, was appropriate. The district court conditionally
accepted the negotiated plea.
Mr. Kibble remained out on bond for ten months in between his change-of-plea hearing on
March 18, 2019 and his sentencing hearing on January 14, 2020. At sentencing, the district
court calculated Mr. Kibble's guidelines range as 46-57 months’ imprisonment. J.A. 133. The
court rejected Mr. Kibble's request for a low-end sentence and imposed a 57-month term of
imprisonment instead. In selecting this sentence, the court explained:
[A] sentence at the top of the guidelines was called for because of the egregious nature of
the defendant's misconduct. Not only did the defendant express a willingness and a desire to
engage in an illicit sexual relationship with a minor, he engaged in a conversation that even
without consummating a sexual act would certainly contribute to, for want of a better word, the
delinquency of the minor.
I find the defendant's behavior despicable and inexcusable. And I think this cries out for a
sentence at the top of the guidelines, particularly to impose the maximum deterrent impact on
others who might be tempted to engage in similar conduct.
The Court believes that sentence is sufficient but not greater than necessary to adequately punish
the defendant for his serious offense behavior, to instill within the defendant and the public a
proper respect for the law, and to provide for a proper period of incapacitation and a *329
suitable opportunity for rehabilitation. J.A. 152.
The court also imposed a 15-year term of supervised release and ordered Mr. Kibble to pay a
$5,000 special assessment. After imposing this sentence, the district court, without objection from
the Government, continued Mr. Kibble's bond and allowed him to self-report. J.A. 154. Mr. Kibble
began his prison sentence on February 14, 2020.
To Mr. Kibble's misfortune, he entered FCI Elkton only shortly before COVID-19 did. Mr. Kibble
was born with tricuspid atresia, a heart condition that has required two open heart surgeries, a

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-4 4

United States v. Kibble, 992 F.3d 326 (2021)

cardiac catheterization procedure, and a surgery to redirect blood from his lower body to his lungs.
Mr. Kibble also has non-alcohol related cirrhosis of the liver. Concerned that these underlying
conditions would make him more susceptible to contracting COVID-19 and suffering serious
complications, Mr. Kibble filed an emergency motion for compassionate release. He contracted
the virus shortly thereafter.
The district court acknowledged that Mr. Kibble's medical conditions, when viewed in conjunction
with the dire infection rate at FCI Elkton, presented “extraordinary and compelling reasons” for
granting a reduced sentence under

18 U.S.C. § 3582(c)(1)(A). It nonetheless denied Mr. Kibble's

motion, finding that he posed a danger to the safety of others and that the
factors counseled against early release. Mr. Kibble timely appealed.

18 U.S.C. § 3553(a)

II.
[1] To date, we have not decided in a published opinion what standard governs our review of a
grant or denial of compassionate release under 18 U.S.C. § 3582(c)(1)(A)(i). Several of our sister
circuits review for an abuse of discretion, finding that “the standard applicable to other motions
for sentence reductions under

§ 3582(c)(2) [ ] instructive.”

F.3d 691, 693 (5th Cir. 2020); see also

United States v. Chambliss, 948

United States v. Jones, 980 F.3d 1098, 1112 (6th Cir.

2020) United States v. Rodd, 966 F.3d 740, 747–48 (8th Cir. 2020);
967 F.3d 327, 330–31 (3d Cir. 2020). We now follow suit.
Section 3582(c)(2)’s language mirrors

United States v. Pawlowski,

§ 3582(c)(1)’s in relevant respects. Like

§ 3582(c)

(1), it provides that a “court may reduce [a] term of imprisonment,” upon considering the

§

3553(a) factors, if certain conditions are met. 18 U.S.C. § 3582(c)(2) (emphasis added). Like
our prior unpublished decisions on this issue, we see no reason to adopt different standards for
these parallel provisions. 1 We therefore review the district court's denial of Mr. Kibble's motion
for abuse of discretion.
1

See, e.g., United States v. Blevins, 832 F. App'x 192 (Mem.) (4th Cir. 2020) (unpublished)
(per curiam); United States v. Boyd, 831 F. App'x 648 (Mem.) (4th Cir. 2020) (unpublished)
(per curiam); United States v. Trotman, 829 F. App'x 607, 608 (4th Cir. 2020) (unpublished)
(per curiam); United States v. Adamson, 831 F. App'x 82, 83 (4th Cir. 2020) (unpublished)
(per curiam); United States v. Sloan, 823 F. App'x 173, 174 (4th Cir. 2020) (unpublished)
(per curiam); United States v. Taylor, 820 F. App'x 229, 230 (4th Cir. 2020) (unpublished)
(per curiam); United States v. Aquino, 813 F. App'x 127, 128 (4th Cir. 2020) (unpublished)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-5 5

United States v. Kibble, 992 F.3d 326 (2021)

(per curiam); United States v. Bunch, 812 F. App'x 157, 157 (4th Cir. 2020) (unpublished)
(per curiam); United States v. Hill, 809 F. App'x 161, 162 (4th Cir. 2020) (unpublished) (per
curiam).
III.
Before 2018, district courts could only reduce a term of imprisonment under

§ 3582(c)(1)

(A) “upon motion of the Director *330 of the Bureau of Prisons.” 18 U.S.C. § 3582(c)(1)
(A) (2002). BOP used its power to identify candidates for compassionate release with noted
infrequency. United States v. Brooker, 976 F.3d 228, 231–32 (2d Cir. 2020) (citing U.S.
Dep't of Just. Office of the Inspector General, The Federal Bureau of Prisons’ Compassionate
Release Program 1 (2013), https://www.oversight.gov/sites/default/files/oig-reports/e1306.pdf)
(last visited March 25, 2021) (saved as ECF opinion attachment). For years, BOP resisted
congressional efforts to expand eligibility for compassionate release. Id.; United States v.
Jones, 980 F.3d 1098, 1110 (6th Cir. 2020). So, when Congress passed the First Step Act in 2018,
it amended 18 U.S.C. § 3582(c). See First Step Act, Pub. L. 115-391 § 603(b), 132 Stat. 5194,
5239 (2018) (titled “Increasing the Use and Transparency of the First Step Act”). As amended,
§ 3582(c) permits incarcerated persons to file motions for compassionate release directly with
the district court so long as they first exhaust their administrative remedies. Id. 2
2

To satisfy § 3582(c)(1)(A)’s exhaustion requirement, incarcerated persons must first ask
the BOP to file a motion for compassionate release on their behalf, and then, either (1) appeal
the BOP's failure to bring a motion on their behalf, or (2) allow 30 days to lapse after making
the request, whichever comes first.

18 U.S.C. § 3582(c)(1)(A). Courts are split over the

question of whether, and under what circumstances, a court may waive § 3582(c)(1)(A)’s
exhaustion requirement. That issue does not arise here, however, as it is undisputed that Mr.
Kibble exhausted his administrative remedies. Opening Br. at 5–6; Response Br. at 10; J.A.
362–63.
Relevant here, § 3582(c)(1)(A) permitted the district court to reduce Mr. Kibble's term of
imprisonment if it first found that “extraordinary and compelling reasons warrant[ed] such
a reduction,” then considered the
§ 3553(a) factors, and ultimately determined that the
requested reduction was consistent with the “applicable policy statements issued by the Sentencing
Commission.”

18 U.S.C. § 3582(c)(1);

Chambliss, 948 F.3d at 693–94. The district court

enjoyed broad discretion in conducting this analysis.
F.3d at 237–38;

Jones, 980 F.3d at 1112;

Brooker, 976

Chambliss, 948 F.3d at 693.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-6 6

United States v. Kibble, 992 F.3d 326 (2021)

The district court concluded that Mr. Kibble's health conditions, within the context of a high-spread
facility like FCI Elkton, amounted to extraordinary and compelling circumstances, a finding that
the Government does not challenge on appeal. The district court nonetheless denied Mr. Kibble's
motion, holding that a sentence reduction would not be consistent with
and that the

USSG § 1B1.13, p.s.

§ 3553(a) factors counseled against a sentence reduction. Although the district court

erred in applying
applying the

USSG § 1B1.13, p.s. to Mr. Kibble's motion, it did not abuse its discretion in

§ 3553(a) factors to Mr. Kibble's case.

A.
Section 3583(c)(1) requires that a sentence reduction be “consistent with applicable policy
statements issued by the Sentencing Commission.” Here, the district court held that

USSG §

1B1.13 was “applicable” to Mr. Kibble's request. USSG § 1B1.13 renders an incarcerated person
ineligible for a sentence reduction if the district court determines that he is “a danger to the safety
of any other person or to the community, as provided in

18 U.S.C. § 3142(g).” The district court

found that Mr. Kibble posed a danger to the public and concluded that he did not qualify for
3582(c)(1)(A) relief.
[2] But we have since held that

§

USSG § 1B1.13 only applies when a request for compassionate

release is made “[u]pon motion *331 of the Director of the Bureau of Prisons.”

United States

v. McCoy, 981 F.3d 271, 281–83 (4th Cir. 2020). The Sentencing Commission adopted USSG §
1B1.13 before Congress enacted the First Step Act—at a time when “a motion [for compassionate
release] could reach a reviewing court only by way of the BOP.”
in

Id. at 283. And, as we explained

McCoy, the text of the policy statement indicates that it only applies to motions of that sort.
Id. at 281–82. The Commission “has not updated [ USSG § 1B1.13] to account for the fact

that the Act now allows defendants to file their own motions for compassionate release.”
at 282. “[I]n other words,

§ 1B1.13 does not apply, and thus

requirement does not constrain the discretion of district courts.”

Id.

§ 3582(c)(1)(A)’s consistency
Id. at 281.

Mr. Kibble filed his motion for compassionate release directly with the district court; the Director
of the BOP did not submit it on his behalf. Accordingly, USSG § 1B1.13 did not apply to Mr.
Kibble's request. The district court erred in holding otherwise. We therefore affirm on separate
grounds.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-7 7

United States v. Kibble, 992 F.3d 326 (2021)

B.
[3] Moreover, a district court may not grant a sentence reduction under
(1)(A) without “considering the factors set forth in

18 U.S.C. § 3582(c)

section 3553(a) to the extent that they are

applicable.” 3 Mr. Kibble contends that, rather than viewing these factors holistically, the district
court made one consideration dispositive: the amount of time he had served on his sentence.
Mr. Kibble also argues that the district court gave insufficient weight to his preexisting medical
conditions and the conditions at FCI Elkton. We do not read the district court's order as Mr. Kibble
does.
3

The text of

18 U.S.C. § 3582(c)(1) does not specify what conclusion a district court

must draw from the § 3553(a) factors in order to grant a motion for compassionate
release. In stark contrast to the portion of the statute that requires a sentence reduction to be
“consistent with applicable policy statements,”

§ 3582(c)(1) merely requires district courts

to “consider[ ]” the relevant § 3553(a) factors. We understand this language as providing
district courts with procedural guardrails for exercising their discretion, not creating a
substantive prerequisite to compassionate release.
The district court considered the relevant § 3553(a) factors. It acknowledged that although Mr.
Kibble lacked any criminal history, “his offense was violent,” and the seriousness of traveling
across state lines to have sex with a 14-year-old girl counseled against a sentence reduction.
Kibble, 2020 WL 3470508, at *4. Notably, just a few months earlier the district court had imposed
a sentence at the top of the guidelines range, emphasizing the “egregious,” “despicable,” and
“inexcusable” nature of Mr. Kibble's offense conduct. J.A. 152. In evaluating the § 3553(a)
factors at the original sentencing, the court also had concluded that a significant sentence was
necessary to deter others from similar misconduct. Id.
It is true that, in denying Mr. Kibble's compassionate release motion, the district court found it
“very significant” that Mr. Kibble had served such a small portion of his sentence. Kibble, 2020
WL 3470508, at *3. But, upon viewing this statement in context, we do not read “very significant”
to mean “dispositive.” The district court was entitled to consider the amount of time Mr. Kibble
already had served as one factor in the

§ 3553(a) analysis. See

Chambliss, 948 F.3d at 694;

Pawlowski, 967 F.3d at 331. The district court also gave great weight to the nature of Mr. Kibble's
offense, noting the “particular circumstances” of his conviction. Elsewhere in the *332 opinion,
the district court expressed concern that Mr. Kibble, “armed with condoms, crossed state lines for
the express purpose of having sex with a fourteen-year-old girl.”

Id.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-8 8

United States v. Kibble, 992 F.3d 326 (2021)

The record also demonstrates that the district court reconsidered the § 3553(a) factors in view of
the extraordinary and compelling circumstances present in Mr. Kibble's case. The court's decision
reflects its understanding of Mr. Kibble's health conditions, the conditions at FCI Elkton, and the
severe risks arising out of those circumstances. Kibble, 2020 WL 3470508, at *2 (“Accordingly,
[the] defendant–due to his preexisting medical conditions–is at a higher risk of health problems
resulting from COVID-19.”); id. (explaining that FCI Elkton was “suffering from a significant
outbreak of COVID-19” and that it “has been one of the hardest hit institutions in the country”).
The district court did not abuse its discretion by nonetheless denying Mr. Kibble's motion. To do
so, a district court must “act[ ] arbitrarily or irrationally, fail[ ] to consider judicially recognized
factors constraining its exercise of discretion, rel[y] on erroneous factual or legal premises, or
commit[ ] an error of law.” United States v. Trotman, 829 F. App'x at 608 (quoting United States
v. Dillard, 891 F.3d 151, 158 (4th Cir. 2018) (internal quotation marks omitted)). And here, the
district court did not.

IV.
The district court did not abuse its discretion by concluding that the § 3553(a) factors counseled
against a sentence reduction in Mr. Kibble's case. Notwithstanding the district court's error in
applying

USSG § 1B1.13, we affirm.

AFFIRMED
GREGORY, Chief Judge, concurring:
The district court had discretion in evaluating Mr. Kibble's request for compassionate release. And
as our decision explains, the district court's decision to deny that request fell within the realm of
its permissible discretion. I write separately to express my additional views on the district court's
analysis and, more broadly, the range of permissible considerations for motions for compassionate
release.

I.
The district court correctly held that “extraordinary and compelling” circumstances may exist
when at-risk inmates are housed in a correctional facility where COVID-19 is present. United
States v. Kibble, No. 2:19-cv-00077, 2020 WL 3470508, at *2 (S.D.W. Va. June 25, 2020). “At
risk” and “present” are necessarily vague terms of art. Imagining an inmate's health conditions on

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A-9 9

United States v. Kibble, 992 F.3d 326 (2021)

the X-axis, and the degree of spread (within the facility and surrounding community) on the Y-axis,
courts must decide what combination of circumstances qualify as “extraordinary and compelling”
with flexibility and common sense. Circumstances might not be “extraordinary and compelling”
for an otherwise healthy 65-year-old gentleman at a facility with little spread; whereas, the same
characteristics at a different facility might satisfy § 3582(c)(1)’s threshold. This analysis, as the
district court noted, “requires a fact-intensive inquiry.” Id. (quoting United States v. Shakur, No.
82 CR 312 (CSH), 2020 WL 1911224, at *1 (S.D.N.Y. Apr. 20, 2020)).
The analysis also requires appropriate consideration of the risks identified by public health experts.
For example, the Center for Disease Control and Prevention advises that “[o]lder adults are at
greater risk of requiring hospitalization or dying if they are diagnosed with COVID-19.” Older
*333 Adults, CENTER FOR DISEASE CONTROL AND PREVENTION, https://www.cdc.gov/
coronavirus/2019-ncov/need-extra-precautions/older-adults.html (last visited March 25, 2021)
(saved as ECF opinion attachment). 1 Although the risk is highest for people above the age of 65,
disparity exists across the board. Id. People in their thirties are twice as likely to be hospitalized
for COVID-19 as people in their twenties, and four times as likely to die from the disease. Id.
1

In the proceedings below, both parties relied upon the expert, albeit evolving, guidance
provided by the Center for Disease Control and Prevention. J.A. 170-71, 176-79, 231, 233.
The district court followed suit. J.A. 365. Absent argument to the contrary, I too view the
current CDC guidance as the relevant benchmark for evaluating the threats that COVID-19
presents.

The prevailing guidance also cautions that the risks associated with COVID-19 vary depending on
people's underlying health conditions. “[A]dults of any age ... are at increased risk of severe illness
from the virus that causes COVID-19” if they suffer from one or more of several health conditions,
such as cancer, coronary artery disease, or chronic kidney disease. People with Certain Medical
Conditions, CENTER FOR DISEASE CONTROL AND PREVENTION, https://www.cdc.gov/
coronavirus/2019-ncov/need-extra-precautions/people-with-medical-conditions.html (last visited
March 25, 2021) (saved as ECF opinion attachment). And other medical conditions, such as
asthma, HIV, hypertension, and obesity may place adults of any age at increased risk. 2 Id.
2

The CDC acknowledges that it is learning more about COVID-19 every day. People with
Certain Medical Conditions, CENTER FOR DISEASE CONTROL AND PREVENTION.
It only recently discovered data linking Down syndrome with increased risk of severe illness
from the virus that causes COVID-19. Id. The Center also added sickle cell disease and
chronic kidney disease to its list of conditions that might increase the risk of severe illness
among children. Id. As courts, we must adapt as readily as the guidance does.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A - 10 10

United States v. Kibble, 992 F.3d 326 (2021)

But as public health experts recognize, we cannot view personal factors in isolation from
social and demographic determinants of health. “Long-standing systemic health and social
inequities [place] many people from racial and ethnic minority groups at increased risk of getting
sick and dying from COVID-19.” Health Equity Considerations & Racial & Ethnic Minority
Groups, CENTER FOR DISEASE CONTROL AND PREVENTION, https://www.cdc.gov/
coronavirus/2019-ncov/community/health-equity/race-ethnicity.html (last visited March 25,
2021) (saved as ECF opinion attachment). Systemic inequities likewise place individuals from
rural communities at increased risk of severe illness. Rural Communities, CENTER FOR
DISEASE CONTROL AND PREVENTION, https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/other-at-risk-populations/rural-communities.html (last visited March 25, 2021)
(saved as ECF opinion attachment). When raised and relevant, these considerations—among
others—should all inform courts’ evaluations of incarcerated persons’ circumstances.
Here, Mr. Kibble identified three circumstances that, collectively, qualified as extraordinary and
compelling: (1) the uncontrolled spread of COVID-19 at FCI Elkton, (2) his tricuspid atresia, and
(3) his non-alcohol related cirrhosis of the liver. The district court agreed and so found. At the
time of Mr. Kibble's motion, nearly 25% of Elkton's population had contracted COVID-19; nine
inmates had died as a result. The ACLU of Ohio and the Ohio Justice & Policy Center had named
FCI Elkton as a defendant in a class action suit *334 challenging the facility's conditions of
confinement during the pandemic. And, at the time of Mr. Kibble's motion, Elkton was subject to a
preliminary injunction aimed at correcting the facility's mismanagement. See

Wilson v. Williams,

455 F. Supp. 3d 467, (N.D. Ohio 2020), vacated by Wilson v. Williams, 961 F.3d 829, 833
(6th Cir. 2020). This combination of factors rightly gave rise to the extraordinary and compelling
circumstances animating this case.

II.
Upon concluding that the circumstances that Mr. Kibble faced were extraordinary and compelling,
the district court considered the factors set forth in
recognized that, under

18 U.S.C. § 3553(a). The court correctly

§ 3582(c)(1), its task was not to assess the correctness of the original

sentence it imposed. Rather, its task was to determine whether the § 3553(a) factors counseled
against a sentence reduction in light of the new, extraordinary circumstances identified.
I begin by emphasizing what the text and logic of
is not inconsistent with the

§ 3582(c)(1) make plain: a sentence reduction

§ 3553(a) factors solely because an incarcerated person has only

served a small portion of his sentence. Section 3582(c)(1) permits a district court to reduce a
sentence in “any case”—not just cases where a sentence has been substantially served; not just in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A - 11 11

United States v. Kibble, 992 F.3d 326 (2021)

cases involving low-level or non-violent offenses. See United States v. Gonzales, 520 U.S. 1, 5,
117 S.Ct. 1032, 137 L.Ed.2d 132 (“Read naturally, the word ‘any’ has an expansive meaning, that
is, ‘one or some indiscriminately of whatever kind.’ ”) (quoting Webster's Third New International
Dictionary 97 (1976)). When a statute provides for relief in “any case,” there is no basis for
categorically limiting that relief to a certain subset of cases. See id. (holding that there was
“no basis in the text” for understanding “any other term of imprisonment” to only refer to federal
sentences); see also Ali v. Federal Bureau of Prisons, 552 U.S. 214, 220, 128 S.Ct. 831, 169
L.Ed.2d 680 (2008) (finding that Congress’ use of the word “any” was most naturally understood
as meaning “of whatever kind”); Citizens’ Bank of La. v. Parker, 192 U.S. 73, 81, 24 S.Ct. 181, 48
L.Ed. 346 (1904) (“The word any excludes selection or distinction.”). The Supreme Court reminds
us that courts must give effect to each word in a statute, Setser v. United States, 566 U.S. 231,
239, 132 S.Ct. 1463, 182 L.Ed.2d 455 (2012), appreciating that “Congress says in a statute what
it means and means in a statute what it says there.” Hartford Underwriters Ins. Co. v. Union
Planters Bank, N.A., 530 U.S. 1, 6, 120 S.Ct. 1942, 147 L.Ed.2d 1 (2000). I recognize the breadth
of 18 U.S.C. § 3582(c)(1)’s text not to discount the seriousness of some criminal offenses, but
to give effect to the policy choice that Congress made plain: when extraordinary and compelling
circumstances exist, even the most serious offenders may be eligible for mercy.
Mr. Kibble contends that the district court disregarded this principle and made the length of his time
in prison dispositive. If, upon reading the district court's decision as a whole, I understood “very
significant” to be a euphemism for “dispositive,” then I would be compelled to find legal error. 3
The text of § 3553(a) does not *335 make any factor, or combination of factors, dispositive.
Indeed, as Mr. Kibble argues, some courts have already granted motions for compassionate release
in cases like his, where a person convicted of a sex offense had only served a small portion of
his sentence. 4 Our decision does not cast doubt on those decisions. But nor can we hold that the
district court abused its discretion by exercising that discretion differently. See
States, 552 U.S. 38, 51, 128 S.Ct. 586, 169 L.Ed.2d 445 (2007).
3

Gall v. United

As the per curiam opinion notes, the district court gave great weight to the nature of Mr.
Kibble's offense, noting the “particular circumstances” of his conviction. To be sure, the
district court's invocation of the “particular circumstances” of Mr. Kibble's conviction leaves
some to the imagination about which § 3553(a) factors animated its ruling. See United
States v. Martin, 916 F.3d 389, 395–96 (4th Cir. 2019) (identifying circumstances in which
a district court must provide a reasoned explanation for declining to reduce a sentence under
§ 3582(c)(2)). The district court did not address the fact that, on three prior occasions, it
had found Mr. Kibble was not a danger to the public. J.A. 46, 154. Nor did it discuss the
role of Mr. Kibble's commendable post-conviction conduct. On appeal, however, Mr. Kibble

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A - 12 12

United States v. Kibble, 992 F.3d 326 (2021)

insists that he does not challenge the adequacy of the district court's explanation. Reply Br.
at 1–2. The per curiam opinion therefore did not address that issue.
4

See Opening Br. at 15–16 (citing United States v. Locke, No. CR18-0132 RAJ, 2020 WL
3101016, at *1, 6 (W.D. Wash. June 11, 2020);

United States v. Brown, 2:18-cr-360 KOB-

JEO (001), 2020 WL 5201224 (N.D. Ala. May 22, 2020);

United States v. Ben-Yhwh, 453

F. Supp. 3d 1324, 1326–27 (D. Haw. 2020); United States v. Delgado, 457 F. Supp. 3d 85,
86–87 (D. Conn. 2020); United States v. Winston, 1:13-cr-639-RDB (D. Md. 2020)).
Finally, I disagree with the Government's suggestion that a district court may fulfill its duty to
reconsider the

§ 3553(a) factors by merely recounting the considerations that supported the

original sentence. Response Br. at 11. Section 3582(c)(1) necessarily envisions that the §
3553(a) factors may balance differently upon a motion for compassionate release than they did at
the initial sentencing. An individual requesting compassionate release will, in all cases, be serving
a sentence that a district court once held was “sufficient but not greater than necessary.” If a
district court's original

§ 3553(a) analysis could always prove that a sentence reduction would

intolerably undermine the
be a nullity.

§ 3553(a) factors, then

18 U.S.C. § 3582(c)(1) would, in effect,

There is good reason to believe that, in some cases, a sentence that was “sufficient but not greater
than necessary” before the coronavirus pandemic may no longer meet that criteria. A day in prison
under the current conditions is a qualitatively different type of punishment than one day in prison
used to be. In these times, drastically different. Some facilities house inmates who now serve their
sentences knowing that they are not equipped to guard against a virus that may result in serious
illness or death. Other facilities keep COVID-19 at bay by placing inmates in solitary confinement,
ending prison programs, restricting visitation, and limiting access to nonessential medical care.
See, e.g., United States v. Colon, No. 09-cr-294, 2021 WL 389144, at *6 (D. Conn. Feb. 4, 2021);
United States v. Nuzzolilo, ––– F. Supp. 3d ––––, ––––, 2021 WL 372454, at *1 (D. Mass. Feb. 3,
2021); United States v. Colburn, ––– F. Supp. 3d ––––, ––––, 2021 WL 257133, at *1 (D. Mass.
Jan. 26, 2021); United States v. Jones, No. 4:20-CR-00209, 2021 WL 120843, at *2 (M.D. Pa. Jan.
13, 2021); United States v. Harrison, No. 12-cr-0088-01 (ESH), 2020 WL 5702106, at *2 (D.D.C.
Sept. 24, 2020); Turner v. United States, No. 2:18-cr-128, 2020 WL 4370124, at *2 (E.D. Va. July
30, 2020); United States v. Riley, No. ELH-16-0402, 2020 WL 3034843, at *6–8 (D. Md. June 4,
2020); United States v. Regas, No. 3:91-cr-00057-MMD-NA-1, 2020 WL 2926457, at *1 (D. Nev.
June 3, 2020); United States v. Cardenas-Garcia, No. 20-CR-00644-GPC, 2020 WL 2797529, at
*2 (S.D. Cal. May 29, 2020); see also BOP *336 Modified Operations, BOP.GOV, available
at https://www.bop.gov/coronavirus/covid19_status.jsp (last visited March 25, 2021) (saved as
ECF opinion attachment). These conditions, not contemplated by the original sentencing court,
undoubtedly increase a prison sentence's punitive effect.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A - 13 13

United States v. Kibble, 992 F.3d 326 (2021)

That said, the record here demonstrates the district court's understanding of Mr. Kibble's health
conditions, the conditions at FCI Elkton, and the severe risks arising out of those circumstances.
Kibble, 2020 WL 3470508, at *2 (“Accordingly, [the] defendant–due to his preexisting medical
conditions–is at a higher risk of health problems resulting from COVID-19.”); id. (explaining that
FCI Elkton was “suffering from a significant outbreak of COVID-19” and that it “has been one
of the hardest hit institutions in the country”). Viewed as a whole, the district court's decision to
deny Mr. Kibble's motion was not arbitrary, irrational, or incurably premised upon legal error. For
these reasons, I join in the Court's decision to affirm.
QUATTLEBAUM, Circuit Judge, concurring:
I write separately to briefly address one aspect of Chief Judge Gregory's concurring opinion.
Relying primarily on data from the Centers for Disease Control, he outlines a framework to
evaluate the threshold requirement for compassionate release—the presence of “extraordinary and
compelling reasons.” 18 U.S.C. § 3582(c)(1)(A)(i). He then concludes that the district court
properly made such a finding in this case. This opinion is not the opinion of our Court, and the
issue of “extraordinary and compelling reasons” is not even before us.
The district court did find that Kibble's health conditions and the spread of COVID-19 at Elkton
were “extraordinary and compelling reasons” sufficient to consider compassionate release. But
the government did not challenge that finding as an alternative means for affirming the district
court's judgment. So, no party briefed the issue. And without the benefits of adversarial testing on
appeal, we have properly avoided suggesting a definitive answer to an evolving pandemic-centric
question.
The pace of vaccinations for COVID-19—including in prisons—is accelerating. For that and other
reasons, the COVID-19 pandemic continues to evolve, seemingly improving but surely changing.
Even so, we may still have occasion to grapple with the meaning of “extraordinary and compelling
reasons.” But in my view, we should wait until it is before us to comment on that important legal
issue.
All Citations
992 F.3d 326
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

A - 14 14

NUMBER ______
_________________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________________________________________________
OCTOBER TERM 2020
__________________________________________________________________

RYAN SCOTT KIBBLE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
_________________________________________________________________
APPENDIX B
TO PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_________________________________________________________________
JONATHAN D. BYRNE
APPELLATE COUNSEL
Office of the Federal Public Defender, Southern District of West Virginia
Room 3400, Robert C. Byrd Federal Courthouse
300 Virginia Street East
Charleston, West Virginia 25301
Telephone: 304/347-3350
Counsel for Petitioner
WESLEY P. PAGE
FEDERAL PUBLIC DEFENDER
DAVID R. BUNGARD
ASSISTANT FEDERAL PUBLIC DEFENDER

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 1 of 13 PageID #: 653

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
AT CHARLESTON
UNITED STATES OF AMERICA
v.

CRIMINAL ACTION NO. 2:19-00077

RYAN SCOTT KIBBLE
MEMORANDUM OPINION AND ORDER
Pending before the court is defendant’s “Emergency Motion
for Compassionate Release”.

(ECF No. 73.)

Pursuant to 18 U.S.C.

§ 3582(c)(1)(A)(i), defendant requests compassionate release due
to his “pre-existing medical conditions which place him at ‘high
risk’ of developing severe complications or death” should he
contract the the COVID-19 virus.

Id.

Defendant’s motion has

been fully briefed and is ripe for decision.
I.
On August 12, 2019, Kibble pled guilty to one count of
traveling in interstate commerce for the purpose of engaging in
illicit sexual contact with another person, in violation of 18
U.S.C. §§ 2423(b) and (e).

On January 14, 2020, Kibble was

sentenced to a term of imprisonment of 57 months to be followed
by a term of supervised release of fifteen years.

On February

14, 2020, defendant reported to FCI Elkton in Lisbon, Ohio, to
begin serving his sentence.

He is currently housed at FCI Elkton

JA - 360

B-1

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 2 of 13 PageID #: 654

and, according to the Bureau of Prisons’ website, his current
projected release date is January 30, 2024.
Kibble is 34 years old and was born with a serious heart
condition.

Up until he was incarcerated, Kibble was seen by a

cardiologist who has indicated that patients with “complex
congenital heart disease carry an increased risk if exposed to
the COVID-19 virus.”

Exhibit B to ECF No. 73.

Kibble has also

been diagnosed with non-alcohol related cirrhosis of the liver.
In mid-April of 2020, defendant submitted a written request
for compassionate release to the attention of the Warden at FCI
Elkton.

On April 27, 2020, Kibble’s request for compassionate

release was denied.

See Exhibit A to ECF No. 73.

The instant motion was filed on May 15, 2020.

The

government filed its opposition to defendant’s motion on May 20,
2020, and Kibble filed a reply on May 27, 2020.
After briefing was complete, on June 15, 2020, defendant
filed a supplemental memorandum in support of his motion for
compassionate release.

See ECF No. 76.

Attached to that

supplemental memorandum was a memorandum opinion and order, dated
June 12, 2020, from another judge of this court granting the
motion for compassionate release of Ralph White, another inmate
at FCI Elkton.

See Exhibit A to ECF No. 76.

Kibble urges the

2

JA - 361

B-2

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 3 of 13 PageID #: 655

court to follow that decision and grant his motion for
compassionate release.

Kibble also noted “that he had been

tested for COVID-19 and was subsequently moved to another unit
where he was in quarantine status.

Mr. Kibble has not been told

that he has contracted the virus, but suspects that he did test
positive and is asymptomatic.”

ECF No. 76 at 3.

noted staff at FCI Elkton were not wearing masks.

Kibble further
See id.

In its response to the supplemental memorandum, the
government confirmed that Kibble had been tested for COVID-19 on
May 20, 2020, and the results were reported positive on May 24,
2020.

According to the government, Kibble’s motion for

compassionate release sought release to avoid becoming infected
with COVID-19 and, given that he has already contracted the
virus, his motion should be denied as moot.
On June 18, 2020, Kibble filed a reply to the government’s
memorandum.1

See ECF No. 78.

He argues that his motion is not

moot despite his May 24, 2020, positive test for COVID-19.
id. at 1.

See

According to Kibble’s filing, he only found out he was

positive for COVID-19 on June 17, 2020, after a phone call from
counsel.

See id.

Kibble noted “that he is still being housed in

Both motions to seal, ECF Nos. 77 and 79, which seek to
protect confidential medical information, are GRANTED. To the
extent this Memorandum Opinion and Order discusses medical
information, the court has only mentioned information that is
otherwise available in the public filings.
1

3

JA - 362

B-3

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 4 of 13 PageID #: 656

the same unit where other inmates are visibly ill from the COVID19 virus” but that he “continue[d] to be quarantined from the
remainder of the inmate population at FCI Elkton.”

Id.

Kibble

maintains that although he “has not yet developed a fever or a
hacking cough, his prolonged presence from being housed in the
same dormitory unit with other asymptomatic as well as bedridden
inmates can still result in Mr. Kibble subsequently developing
significant complications from the virus.”

Id.

II.
Pursuant to 18 U.S.C. § 3582(c)(1)(A)(i), the court may
reduce a term of imprisonment previously imposed if it finds that
“extraordinary and compelling reasons warrant such a reduction”
and “such a reduction is consistent with applicable policy
statements issued by the Sentencing Commission.”
The First Step Act empowers criminal defendants to request
that courts grant them compassionate release pursuant to 18 U.S.C
§ 3582(c).

But before they make such requests to the court,

defendants must first ask BOP via the administrative process and
give BOP thirty days to respond.

See id. § 3582(c)(1)(A).

Upon

such a motion from BOP or from a defendant (after either BOP
denies the request or thirty days has elapsed since the request
was filed), a court “may reduce the term of imprisonment.”

Id. §

4

JA - 363

B-4

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 5 of 13 PageID #: 657

3582(c)(1)(A)(i).

Here, Kibble filed a written request for

compassionate release with the BOP which was denied on April 27,
2020.

See ECF No. 73 Ex. A.

Thus, defendant has exhausted his

remedies and the court may consider his motion on the merits.
Congress has restricted the power of courts to modify a term
of imprisonment once it has been imposed except when
“extraordinary and compelling reasons warrant such a reduction”
and when “such a reduction is consistent with applicable policy
statements issued by the Sentencing Commission.”

18 U.S.C. §

3582(c)(1)(A).

Thus, to warrant compassionate release, defendant

must show that:

(1) extraordinary and compelling reasons warrant

a sentence reduction; (2) he is not a danger to the safety of
others or the community; and (3) the reduction satisfies the
sentencing factors in 18 U.S.C. § 3553(a).
USSG §§1B1.13(1)(A),(2).

See id.; see also

It is worth emphasizing that

compassionate release is “an extraordinary and rare event.”
United States v. Mangarella, 2020 WL 1291835, *2-3 (W.D.N.C. Mar.
16, 2020).
A.

Extraordinary and Compelling Reasons

Other district courts, in considering whether extraordinary
and compelling reasons for a sentence reduction exist in light of
COVID-19, have considered the age of the prisoner, the severity

5

JA - 364

B-5

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 6 of 13 PageID #: 658

and documented history of the defendant’s health conditions, and
the proliferation and status of infections in the prison
facility.

United States v. Brady, 2020 WL 2512100, at *3

(S.D.N.Y. May 15, 2020) (citing and gathering cases).

Thus,

compassionate release motions amid the COVID-19 pandemic require
a “fact-intensive” inquiry.

See United States v. Shakur, 2020 WL

1911224, at *1 (S.D.N.Y. Apr. 20, 2020).
According to the Centers for Disease Control and Prevention
(“CDC”), persons with “serious underlying medical conditions”
have a significantly increased the risk of health complications
from COVID-19.

See https://www.cdc.gov/coronavirus/2019-ncov/

need-extra-precautions/people-at-higher-risk.html (last visited
June 23, 2020).

Both “serious heart conditions” and “liver

disease” are listed as two conditions that make a person of any
age at higher risk for serious illness from COVID-19.

Id.

Accordingly, defendant – due to his preexisting medical
conditions - is at a higher risk of health problems resulting
from COVID-19.

Moreover, defendant can show a particularized

risk of contracting the disease, as FCI Elkton is suffering from
a significant outbreak of COVID-19.

See United States v.

Jackson, 2020 WL 3396901, *2 (N.D. Ind. June 19, 2020) (“FCI
Elkton has been one of the hardest hit institutions in the

6

JA - 365

B-6

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 7 of 13 PageID #: 659

country.

As of the date of the evidentiary hearing on this

motion, out of approximately 2500 inmates at Elkton, 438 had
tested positive for COVID-19.
prison population.”).

That’s roughly 25% of the entire

Indeed, defendant has already contracted

COVID-19 although he appears to have remained asymptomatic for
more than 4 weeks.

Nevertheless, the court finds there are

“extraordinary and compelling reasons” within the meaning of 18
U.S.C. § 3582(c)(1)(A) to support a reduced sentence or early
release.
B.

Danger to the Safety of Others

The court cannot find that a sentence reduction for
defendant would not result in danger to the safety of others or
the community.

In this case, defendant, armed with condoms,

crossed state lines for the express purpose of having sex with a
fourteen-year-old girl, in violation of 18 U.S.C. § 2423(b).
This is a crime of violence.

See 18 U.S.C. § 3156(a)(4)(C); see

also United States v. Breeden, 2015 WL 13310427, *7 (D.D.C. Nov.
16, 2015) (noting that Congress designated a violation of §
2423(b) to be a crime of violence).

The court recognizes that

this was defendant’s first offense and that a real minor was not
involved.

The court cannot, however, ignore the dangerous nature

of defendant’s conduct nor is it assured that defendant would not

7

JA - 366

B-7

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 8 of 13 PageID #: 660

present a danger to other minors if released from prison.

See

United States v. Schultz, 2020 WL 2764193, *8 (W.D.N.Y. May 28,
2020) (denying motion for compassionate release where, among
other reasons, defendant “poses a danger to the community given
his criminal conduct in soliciting, grooming, and arranging to
meet a minor for sex”).
C.

Section 3553(a) Sentencing Factors

Even if the court were to conclude that defendant is not a
danger to the community or to the safety of other, the factors
set forth in 18 U.S.C. § 3553(a) compel the denial of defendant’s
motion.

These factors include (i) “the nature and circumstances

of the offense and the history and characteristics of the
defendant”; (ii) the need for the sentence imposed to reflect the
seriousness of the offense, to promote respect for the law, and
to provide just punishment for the offense; to adequately deter
criminal conduct; to protect the public from further crimes of
the defendant; and to provide the defendant with needed
educational or vocational training, medical care, or other
correctional treatment in the most effective manner; (iii) “the
need to avoid unwarranted sentence disparities among defendants
with similar records who have been found guilty of similar
conduct”; (iv) the sentencing guidelines; and (v) “the need to

8

JA - 367

B-8

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 9 of 13 PageID #: 661

provide restitution to any victims of the offense.”

18 U.S.C. §

3553(a).
Applying these factors to defendant, the court finds that
granting defendant’s motion for compassionate release would be
inconsistent with the sentencing factors set forth in § 3553(a).
While defendant has no prior criminal record, his offense was
violent.

Based on the seriousness of defendant’s crime, and the

need to promote respect for the law, to provide just punishment
for the offense, to adequately deter criminal conduct, and to
avoid unwanted sentencing disparities, the court sentenced
defendant to 57 months of incarceration.

Given these particular

circumstances, the court finds it very significant that defendant
has served less than a tenth of his sentence.

Thus, the court

finds that a sentence reduction of approximately 90 percent would
be entirely inconsistent with the sentencing factors set forth in
§ 3553(a).
The vast majority of district courts have likewise declined
to grant compassionate release motions where a defendant has
served a small fraction of his or her sentence of incarceration.
See United States v. Lonich, 2020 WL 2614874, at *3 (N.D. Cal.
May 21, 2020) (denying motion despite COVID-19 outbreaks in the
facility and defendant being 65 years old and having medical

9

JA - 368

B-9

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 10 of 13 PageID #: 662

conditions that make him particularly vulnerable, because “the
Court finds it significant that defendant[] ha[s] served far less
than half of [his] sentence[]”); United States v. Pawlowski, 2020
WL 2526523, *7 (E.D. Pa. May 18, 2020) (denying motion for
compassionate release where defendant had “served only a small
fraction of his sentence to date”); United States v. Brady, 2020
WL 2512100, at *4 (S.D.N.Y. May 15, 2020) (finding that despite
defendant having serious medical conditions “[t]he deterrence
objectives of 18 U.S.C. § 3553(a) would be undercut by a
reduction here, where [defendant] has served . . . less than one
quarter” of his sentence); United States v. Bogdanoff, 2020 WL
2307315, *6 (E.D. Pa. May 8, 2020) (noting that defendant who had
served only seven years of 18-year sentence had a “much
different” case for compassionate release than “others where
defendants are at the end of their sentence”); United States v.
Hylander, 2020 WL 1915950, at *2 (S.D. Fla. Apr. 20, 2020)
(denying compassionate release where 66-year-old defendant had
served one-third of sentence and suffered from a number of
significant health conditions).2
See also United States v. Arthur Williams, 2020 WL 3086049, at
*1 (D. Mass. June 10, 2020) (denying in part because defendant
had served less than half of his sentence); United States v.
Brinkley, 2020 WL 3051574, at *1 (S.D. Fla. June 7, 2020)
(“Although [chronic bronchitis] may put him at a higher risk of
contracting the a severe case of Covid-19, Brinkley’s asthma is
not at such an acute level as to warrant his release after
2

10

JA - 369

B - 10

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 11 of 13 PageID #: 663

The court is very concerned about the spread of COVID-19 in
the federal prison system, and especially about the outbreak at
FCI Elkton.

However, while defendant’s medical conditions place

him at higher risk of complications if infected with the virus,
the court cannot ignore that defendant has already contracted the
virus and has not suffered serious complications.

See United

States v. Reynolds, 2020 WL 3266532, *4 (W.D. Wash. June 17,
2020) (“The fact that Mr. Reynolds tested positive for COVID-19
with a `resolved’ diagnosis significantly alters the analysis of
serving less than 50% of his sentence”); United States v.
Colonna, 2020 WL 2839172, at *4 (S.D. Fla. June 1, 2020) (holding
that a modification of defendant’s sentence is unwarranted in
part because defendant had served less than 25% of the sentence);
United States v. Linder, 2020 WL 2793089, at *4 (W.D. Pa. May 29,
2020) (same); United States v. Singui, 2020 WL 2523114, at *5
(C.D. Cal. May 18, 2020) (same); United States v. Alvarez, 2020
WL 2572519, at *5 (S.D. Fla. May 21, 2020) (assuming defendant
had satisfied exhaustion requirement, court would still deny
compassionate release on § 3553(a) grounds because defendant had
served less than 25% of his sentence); United States v. Zamor,
2020 WL 2764282, at *2 (S.D. Fla. May 12, 2020) (“Crucially, [the
defendant] has completed less than 40% of this sentence, and the
applicable 18 U.S.C. § 3553(a) factors . . . do not warrant [his]
release after serving less than half of his sentence”); United
States v. Gamble, 2020 WL 1955338, at *4 (D. Conn. Apr. 23, 2020)
(denying compassionate release where 47-year-old defendant had
served five months of 92-month sentence and suffered from
diabetes); United States v. Moskop, 2020 WL 1862636, at *1 (S.D.
Ill. Apr. 14, 2020) (denying compassionate release where 72-yearold defendant had served less than half of 240-month sentence and
suffered from various significant risk-increasing medical
conditions); United States v. Haney, 2020 WL 1821988, at *7
(S.D.N.Y. Apr. 13, 2020) (denying compassionate release for a 61year-old prisoner whose release would reduce a 42-month sentence
to nine months).
11

JA - 370

B - 11

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 12 of 13 PageID #: 664

his petition for compassionate release.

His last medical report

indicates that he is currently receiving medication for his other
health concerns and is not suffering from any reported lingering
symptoms from COVID-19.

Consequently, his circumstances do not

provide a basis to reduce his sentence or grant his request for
compassionate release.”).

The § 3553 factors are dispositive in

this case–especially the very small amount of time that defendant
has served for his crime.

An approximate 90 percent reduction in

sentence would not reflect the seriousness of the offense,
provide just punishment, be a sufficient deterrent to others in
the community, and would result in unwarranted sentencing
disparities.

See 18 U.S.C. § 3553(a); see also United States v.

Oropeza Lopez, 2020 WL 1923194, at *2 (E.D. Cal. Apr. 21, 2020)
(“Defendant has served less than half of his sentence [which] . .
. would not appear to “reflect the seriousness of the offense” or
“provide just punishment for the offense.”); United States v.
Edington, 2020 WL 2744140, at *5 (D. Colo. May 27, 2020)
(concluding that, even if the court were to find the defendant
was not a danger to the community, a “sentence of less than half
the court originally imposed is [not] sufficient to further the
goals of sentencing”).

A sentence of 57 months imprisonment was

necessary to achieve those goals and a reduction of the magnitude

12

JA - 371

B - 12

Case 2:19-cr-00077 Document 80 Filed 06/25/20 Page 13 of 13 PageID #: 665

that defendant seeks runs counter to those objectives.

Even

converting defendant’s sentence to one of home confinement, when
he has served little more than 4 months of a 57-month term of
incarceration, would disserve these important § 3553(a) factors.
III.
Having considered the entire record in this matter,
including the parties’ filings related to the instant motion, the
court concludes that a sentence reduction would not serve the
sentencing objectives of 18 U.S.C. § 3553(a).

Therefore, the

court DENIES Kibble’s motion for compassionate release.
The Clerk is directed to send a copy of this Order to
counsel of record, any unrepresented parties, and the Probation
Office of this court.
It is SO ORDERED this 25th day of June, 2020.
ENTER:

David A. Faber
Senior United States District Judge

13

JA - 372

B - 13

